                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number: 112060039                                                                 Page 1 of 1



                 The Federal Financial Reports for an award 1 showed unusual drawdowns during the
         course of the award: large drawdowns were followed by credits followed by further drawdowns.
         Source documentation provided by the awardee institution2 demonstrated that the grant funds
         were properly spent and that the terms and conditions of the program were met. Accordingly,
         this case is closed.




         2




NSF OIG Form 2 (11/02)
